<html>
<title> - THE DEPARTMENT OF ENERGY'S ROLE IN ADVANCING THE NATIONAL, ECONOMIC, AND ENERGY SECURITY OF THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   THE DEPARTMENT OF ENERGY'S ROLE IN
  ADVANCING THE NATIONAL, ECONOMIC, AND ENERGY SECURITY OF THE UNITED 
                                 STATES

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2016

                               __________

                           Serial No. 114-170
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
22-783                        WASHINGTON : 2017                         
________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284f5847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>  
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, J r., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA D eGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY M cMORRIS RODGERS, Washington  DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY M cNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. M cKINLEY, West Virginia    BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Ohio                   KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                    Subcommittee on Energy and Power

                                VACANCY
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY M cNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. M cKINLEY, West Virginia    LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, J r., New Jersey 
MARKWAYNE MULLIN, Oklahoma               (ex officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
    Prepared statement...........................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    53

                               Witnesses

Ernest Moniz, Secretary, U.S. Department of Energy...............     6
    Prepared statement...........................................     9
    Answers to submitted questions...............................    55

 
 THE DEPARTMENT OF ENERGY'S ROLE IN ADVANCING THE NATIONAL, ECONOMIC, 
                AND ENERGY SECURITY OF THE UNITED STATES

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 Rayburn House Office Building, Hon. Pete Olson 
presiding.
    Members present: Representatives Olson, Barton, Latta, 
Harper, McKinley, Kinzinger, Griffith, Johnson, Flores, Mullin, 
Upton (ex officio), Rush, McNerney, Tonko, Engel, Green, Capps, 
Doyle, Castor, Sarbanes, Welch, Yarmuth, and Pallone (ex 
officio).
    Staff present: Will Batson, Legislative Clerk, Energy & 
Power; Blair Ellis, Digital Coordinator/Press Secretary; Tom 
Hassenboehler, Chief Counsel, Energy & Power; Robert 
Ivanauskas, Detailee, Energy & Power; A.T. Johnston, Senior 
Policy Advisor; Ben Lieberman, Counsel, Energy & Power; Brandon 
Mooney, Professional Staff Member, Energy & Power; Mary 
Neumayr, Senior Energy Counsel; John Ohly, Professional Staff, 
Oversight & Investigations; Dan Schneider, Press Secretary; 
Peter Spencer, Professional Staff Member, Oversight; Andy Zach, 
Counsel, Energy & Environment; Jean Fruci, Minority Energy and 
Environment Policy Advisor; Rick Kessler, Minority Senior 
Advisor and Staff Director, Energy and Environment; John 
Marshall, Minority Policy Coordinator; Dan Miller, Minority 
Staff Assistant; Alexander Ratner, Minority Policy Analyst; Tim 
Robinson, Minority Chief Counsel; Andrew Souvall, Minority 
Director of Communications, Outreach and Member Services; Tuley 
Wright, Minority Energy and Environment Policy Advisor; and 
C.J. Young, Minority Press Secretary.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. This hearing will finally come to order. 
Obviously, four votes and members going home have put a time 
crunch on this committee.
    I want every member to know, whether you're Republican or 
Democrat, ten terms or your first term, you will have a chance 
to ask our witness your questions.
    But that means I'll be very aggressive with the gavel to 
ensure you stick to the 5-minute limit, and here's my example. 
I give myself 5 minutes for an opening statement.
    America is back. We are an energy superpower. That 
statement would have sounded odd a handful of years ago and 
laughable in the 1970s.
    But the fact is we are awash in energy. Today, we are the 
world's leading producer of oil and gas and we are less reliant 
upon foreign sources of energy.
    Our resources are plentiful and affordable--so affordable 
that low prices have become a common complaint back home in 
Houston, Texas, except for my daughter in college who now has 
more money from her allowance. Instead of buying gasoline, she 
goes to Starbucks more often.
    This subcommittee has been hard at work to bring energy 
policy into the 21st century and we are beginning to see 
positive effects. Since we have lifted the ban on crude exports 
last year, American oil is spreading all across the globe. We 
are undercutting OPEC and Russia, helping our allies and giving 
American workers an opportunity to compete. Natural gas imports 
are ramping up as well, a trend that's likely to continue if we 
get the permitting process right.
    Unlike other energy commodities, you have to ask DOE for a 
permit to export natural gas. Unfortunately, these are 
applications that have been held up at DOE and sometimes for at 
least three years without a decision.
    These delays are jeopardizing major construction projects 
and threatening American jobs. We have the opportunity for jobs 
and affordable energy right here at home and to our allies 
abroad.
    But there is still much work to be done. It is hard to 
build infrastructure in this country. Yes, my own state of 
Texas has plenty of oil and gas to serve our homes and our 
businesses. But our friends in New England face gas shortages 
and price spikes because it is almost impossible to build a 
pipeline.
    In other parts of the country people pay more than they 
should for electricity because of harmful EPA regulations. We 
are using our Energy Conference with the Senate to examine ways 
to improve infrastructure permitting plus a whole host of other 
topics such as grid and cybersecurity, energy efficiency and 
workforce development.
    Likewise, we are in an era of abundance at home and must be 
vigilant concerning emergency preparedness. For example, the 
Nation's Strategic Petroleum Reserve--the SPR--is aging rapidly 
and the DOE's long-term strategic review, at least last week, 
raise very serious issues about the ability of the SPR to meet 
its mission.
    According to the report, the SPR may only be able to 
effectively distribute about half as much of the oil it is 
designed to supply in an emergency--one half.
    Congress has authorized $2 billion for SPR infrastructure 
modernization. But before that can be approved we need the 
department to be open and transparent about the condition of 
SPR and the funds required to rehabilitate it.
    We want to make DOE a bigger part, a critical part, of our 
emergency response and that's why we used last year's FAST Act 
to grant new emergency authorities and procedures to act in 
some specific cases.
    However these limits--there are limits to this authority 
that we give DOE. Any new requests will be closely scrutinized.
    Again, thank you for joining us today, Mr. Secretary. I am 
proud that this hearing, just like last week's, will mostly be 
bipartisan. Everybody on this dais wants the same thing--an 
energy economy that brings jobs and creates security at home 
with opportunities to advance our interests overseas.
    [The prepared statement of Mr. Olson follows:]

                  Opening Statement of Hon. Pete Olson

    America is an energy superpower. That statement would have 
sounded odd a handful of years ago, and laughable in the 1970s. 
But the fact is that we are awash in energy. Today, we are the 
world's leading producer of oil and gas and we're less reliant 
on foreign imports. Our resources are plentiful and 
affordable--so affordable that low oil prices have become a 
common complaint back in Houston.
    This subcommittee has been hard at work to bring our energy 
policy into the 21st century, and we're beginning to see the 
positive effects. Since we've lifted the ban on crude oil 
exports last year, American oil is a spreading across the 
globe. We are undercutting OPEC and Russia, helping our allies, 
and giving American workers an opportunity to compete.
    Natural gas exports are ramping up as well, a trend that is 
likely to continue if we get the permitting process right. 
Unlike other energy commodities, you have to ask DOE for a 
permit to export natural gas. Unfortunately, there are 
applications that have been held up at DOE for years without a 
decision. These delays are jeopardizing major construction 
projects and threatening American jobs.
    We have the opportunity for jobs and affordable energy at 
home and aid to our allies abroad.
    But there is still much work to be done----
    It is too hard to build infrastructure in this country. 
Yes, Texas has plenty of oil and gas to serve our homes and 
businesses, but our friends in New England face gas shortages 
and price spikes because it's almost impossible to build a new 
pipeline. And in other parts of the country, people pay more 
than they should for electricity because of harmful EPA 
regulations.
    We are using the energy conference to examine ways to 
improve infrastructure permitting, pl us a whole host of other 
topics such as grid and cyber-security, energy efficiency, and 
workforce development.
    Likewise, while we are in an era of abundance at home, we 
must be vigilant in considering emergency preparedness. For 
example, the nation's Strategic Petroleum Reserve (SPR) is 
aging rapidly, and the DOE's Long-Term Strategic Review, 
released last week, raised very serious issues about the 
ability of the SPR to meet its mission.
    According to the report, the SPR may only be able to 
effectively distribute about half as much oil as it is designed 
to supply in an emergency. Congress has already authorized $2 
billion dollars for SPR infrastructure modernization. Before it 
can be appropriated, we need the Department to be open and 
transparent about the condition of the SPR and funds required 
to rehabilitate it.
    We want to make sure DOE stays a critical part of emergency 
response. That is why we used last year's FAST Act to grant new 
emergency response procedures to the Department to act in some 
specific cases. However, there are limits to the authority we 
will give to the DOE. Any new request will be closely 
scrutinized.
    Again, thank you for joining us today Mr. Secretary. I am 
proud that this hearing--just like last week's--is relatively 
bipartisan. Everyone on this dais wants the same thing: an 
energy economy that brings economic and security benefits at 
home and opportunities to advance our interests abroad.

    Mr. Olson. And I yield back the balance of my time and 
recognize the ranking member of the full committee, Mr. 
Pallone, for an opening statement for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. Thank you, Chairman, for holding 
today's hearing evaluating the Department of Energy's work on 
energy security here in the United States and I'd like to 
welcome Secretary Moniz back and thank him for his efforts to 
provide us all with a more secure energy future.
    This is an important topic but the realities of energy 
security are changing as our energy mix changes. We can no 
longer simply look at oil supply when we think about energy 
security.
    Our country must take a broader approach that encompasses 
cleaner energy technologies including renewable energy 
technologies, which are becoming more affordable.
    And beyond the realities of our energy mix we must 
recognize the impacts climate change is having on energy 
security here in the United States and abroad.
    Our nation is not alone in this. The G7 Energy Initiative 
for Energy Security states ``that reducing emissions from 
fossil fuels is necessary to tackle climate change and can 
enhance our energy security.''
    Simply put, an energy future that reduces our carbon 
emissions and our reliance on fossil fuels is a more secure 
energy future. But simply recognizing and identifying issues 
affecting our energy security is not enough. We must take real 
action to enhance and protect our energy infrastructure. I have 
championed two critical proposals borne out of DOE's 
quadrennial energy review--one to support state efforts to 
modernize and harden the electricity grid and the other to 
encourage investment in the repair of old leaking natural gas 
pipeline infrastructure in major metropolitan regions.
    And to make our energy future more secure, we must make 
serious investments in our aging and often outdated energy 
infrastructure.
    I would be remiss if I did not also mention the energy bill 
conference. Along with my colleagues who sit on the conference 
committee, we have started the difficult process of merging two 
very different bills, and while some progress has been made 
there are still many contentious issues to be resolved and I 
have made it clear that one of my top priorities in any final 
energy conference report is providing investments in our energy 
infrastructure to address some of the needs outlined in the QER 
such as grid modernization.
    Mr. Chairman, the energy sector in 2016 looks vastly 
different than it did the last time we passed major energy 
legislation. Changes in energy markets, new technologies, 
improved efficiency and shifting consumer demand are all 
transforming how we think about energy security.
    Secretary Moniz, I want to thank you for bringing this 
conversation to the forefront and for your work to bolster our 
energy and overall national security and I look forward to your 
testimony.
    And I would like to yield the remainder of my time to Mr. 
McNerney.
    Mr. McNerney. Well, first of all, I want to thank the 
chairman for holding this hearing. Energy is an issue I care 
deeply about. I am glad to have a chance to hear from Secretary 
Moniz.
    Mr. Secretary, I am always happy to have you in front of 
our committee to give us the latest information on what's 
happening at the DOE and around the country in the energy 
sector.
    I doubt if anyone in our country is more knowledgeable than 
you are and you have the gift of being able to traverse the 
political landscape without too many scars to show. So 
congratulations.
    Our nation's energy system works reasonably well most of 
the time, providing electricity, natural gas, oil and coal 
reliably and at an affordable cost.
    This has been one of the foundations of our nation's 
economy and security. Because of this, most people take our 
energy system for granted until the disruption takes place such 
as an oil shortage or oil price spikes, large power failures or 
climate-caused disasters.
    It is our and your responsibility, Mr. Secretary, to make 
sure that the energy systems continue to operate smoothly and 
reliably. This means the proper regulatory framework be in 
place to encourage the investments needed to keep our energy 
systems operating and up to date with the challenges we face of 
new technology, changing demand, a changing generation--new 
sources of oil and gas--retiring nuclear plants and the 
different threats to our energy systems.
    The quadrennial energy review along with other statutes 
such as the FAST Act and the pending North America Energy 
Security and Investment Act are designed to make sure that we 
succeed in keeping our energy system in good condition.
    And that brings us to today's hearing. Mr. Secretary, I 
look forward to your testimony and to the back and forth that 
will follow to help me increase my understanding of our 
successes and of the challenges that remain.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Chairman Olson and Ranking Member Rush for 
holding today's hearing evaluating the Department of Energy's 
work on energy security here in the United States. I would like 
to welcome Secretary Moniz back and thank him for his efforts 
to provide us all with a more secure energy future.
    This is an important topic--but the realities of energy 
security are changing as our energy mix changes. We can no 
longer simply look at oil supply when we think about energy 
security; our country must take a broader approach that 
encompasses cleaner energy technologies, including renewable 
energy technologies, which are becoming more affordable. And, 
beyond the realities of our energy mix, we must recognize the 
impacts climate change is having on energy security here in the 
U.S. and abroad. Our nation is not alone in this: the G7 Energy 
Initiative for Energy Security states that ``reducing emissions 
from fossil fuels is necessary to tackle climate change and can 
enhance our energy security.'' Simply put, an energy future 
that reduces our carbon emissions and our reliance on fossil 
fuels is a more secure energy future.
    But simply recognizing and identifying issues affecting our 
energy security is not enough--we must take real action to 
enhance and protect our energy infrastructure. I have 
championed two critical proposals--born out of DOE's 
Quadrennial Energy Review (QER)--one to support state efforts 
to modernize and harden the electricity grid, and the other to 
encourage investment in the repair of old, leaking natural gas 
pipeline infrastructure in major metropolitan regions. To make 
our energy future more secure, we must make serious investments 
in our aging and often outdated energy infrastructure.
    I would be remiss if I did not also mention the ongoing 
energy bill conference. Along with my colleagues who sit on the 
conference committee, we have started the difficult process of 
merging two very different bills. And while some progress has 
been made, there are still many contentious issues to be 
resolved. I have made it clear that one of my top priorities in 
any final energy conference report is providing investments in 
our energy infrastructure to address some of the needs outlined 
in the QER, such as grid modernization.
    The energy sector in 2016 looks vastly different than it 
did the last time we passed major energy legislation. Changes 
in energy markets, new technologies, improved efficiency and 
shifting consumer demand are all transforming how we think 
about energy security. Secretary Moniz, I thank you for 
bringing this conversation to the forefront and for your work 
to bolster our energy and overall national security. I look 
forward to your testimony.

    Mr. Olson. Gentleman yields back and right now it is time 
our distinguished witness to speak for 5 minutes. Mr. Moniz--he 
is our secretary of energy, a regular here at the committee.
    You have an invitation in December to come to Thompsons, 
Texas and see the energy at Petra Nova project. As you know, my 
friend, that's the first viable carbon capture enhanced oil 
recovery situation in the whole country. So invitation and 5 
minutes for your opening statement.

   STATEMENT OF THE HONORABLE ERNEST MONIZ, SECRETARY, U.S. 
                      DEPARTMENT OF ENERGY

    Secretary Moniz. Thank you, Vice Chairman Olson and Ranking 
Member Pallone and members of the subcommittee.
    I am very pleased to be here to discuss our role in energy 
security. U.S. energy security must be considered in the 
context of the changing U.S. energy profile, the evolving 
threat environment and the global security challenges facing 
our country and our allies in various regional settings.
    The U.S. is now the number-one producer of liquid fuels and 
of natural gas in the world but remains a major importer of 
crude oil. The unconventional production locations of the new 
supply creates infrastructure challenges and the spread between 
U.S. and European and Asian natural gas prices has been reduced 
considerably.
    Renewable energy technology deployment is rising rapidly as 
costs continue to fall. Energy efficiency policies and 
technologies are contributing to slow growth in demand for 
electricity and flat or declining demand for oil even as our 
economy grows.
    Natural gas has replaced coal as the largest fuel source 
for power generation. This dramatically changed and changing 
energy landscape faces an evolving set of threats as well and 
the structure and nature of our energy emergency responses must 
keep pace with reality.
    We know that adversaries and homegrown actors are 
interested in the vulnerabilities of our critical 
infrastructures. Threats to our infrastructure includes severe 
weather, storm surges, exacerbated by rising and warming seas, 
earthquakes, wildfires, EMP, aging infrastructure, cyber 
threats, kinetic attacks, and growing infrastructure 
interdependencies.
    In response, there are now a range of laws, actions, and 
presidential directives and orders designed to protect our 
citizens, the economy and critical infrastructures from those 
with malevolent intent and from the effects of natural 
disaster.
    Challenges like these underscore the need to rethink energy 
security in light of modern, domestic and global energy 
markets--the subject of this hearing.
    In June 2014, the G-7 and the EU endorsed a set of seven 
modern energy security principles. These principles are 
premised on the recognition of energy security as a collective 
responsibility among allies and friends. The first two 
principles deal with market structures, flexible, transparent 
and competitive energy markets, diversification of fuels, 
sources and routes, including indigenous sources.
    The next three principles highlight the transition to a 
low-carbon economy through clean energy and efficiency, 
innovation, and deployment as key to enduring energy security.
    And the last two principles deal with the need for energy 
infrastructure resilience and effective response to disruptions 
of all types including the need for strategic reserves.
    We have appreciated working with this committee and with 
Congress more broadly in responding to some of the resilience 
and response challenges and, as called for in the FAST Act, are 
working with the Department of State on an energy security 
evaluation study.
    In the remainder of this opening statement, I am just going 
to highlight a few points in my written submission to the 
committee.
    On oil, first, even with strong domestic production the 
U.S. remains directly tied to global oil markets, price 
volatility, and potential market disruptions.
    Second, the Strategic Petroleum Reserve remains essential 
to ensuring the U.S. economy can withstand serious oil supply 
disruptions and associated spikes in petroleum prices.
    The administration recommended in the QER and Congress 
authorized through the bipartisan Balanced Budget Act an 
investment of up to $2 billion in SPRO facilities and marine 
terminal infrastructure modernization.
    The long-term strategic review of the SPRO required by that 
act was submitted to Congress in August.
    The key issue on natural gas in energy security is the 
progress toward global natural gas markets principally through 
LNG developments. Increased U.S. natural gas production has 
contributed to a more financially liquid and competitive 
international and natural gas market which has improved global 
energy security for the U.S., our neighbors, partners, and 
allies.
    Physical exports of LNG from the lower 48 started in 
February of this year. Four more facilities are under 
construction. The U.S. entry into world LNG markets will also 
put downward pressure on European gas prices and could 
constrain the noncompetitive practices of Russia.
    The widening of the Panama Canal is coincident with growing 
U.S. LNG exports, thereby lowering supply chain costs from the 
Gulf to the Pacific Basin.
    The grid faces a lot of new demands based on new 
technologies for both generation and distribution and the need 
to address a new set of vulnerabilities, institutional inertia, 
a complex jurisdictional environment, and a mix of delivery 
service models.
    The second installment of the QER, due later this year, 
will examine the issues confronting the nation's electricity 
system. It'll make policy recommendations on a range of issues 
including the changing generation mix, low load growth, 
increased vulnerabilities, severe weather and climate change, 
new technologies emerging, physical threats as well as cyber, 
aging infrastructure and workforce, jurisdictional issues, 
value creation and the need for an integrated North American 
electricity market.
    DOE's grid modernization initiative complements the QER 
analysis by providing technology and system solutions. The 
majority of our national labs are directly involved in this.
    A key dimension of our efforts is our engagement with 
industry, especially through the Electricity Subsector 
Coordinating Council that bring together key federal agencies 
and electricity sector leaders around resilience and emergency 
response issues.
    Finally, the question of emergency authorities--with the 
FAST Act of last year, Congress provided DOE with a new 
authority to protect and restore critical infrastructure when 
the president declares a grid security emergency, enabling DOE 
to support preparation for and response to cyber, EMP, 
geomagnetic disturbance, and physical attack threats. The FAST 
Act also noted the critical nature of large power transformers 
and required a feasibility study of a strategic transformer 
reserve which we will complete by the end of the year.
    President Policy Directive 21 identifies DOE as the sector-
specific agency for energy infrastructure. As that, we serve as 
the day-to-day federal interface for the prioritization and 
coordination of activities to strengthen the security and 
resilience of critical energy infrastructure.
    In addition, we serve as the lead agency for Emergency 
Support Function 12 under the national preparedness systems, 
the national response framework. So we are responsible for 
facilitating recovery from disruptions to the energy 
infrastructure.
    We look forward to working with Congress now on the 
alignment of authorities, responsibilities, resources and 
organization.
    In conclusion, it is clear that energy security has many 
dimensions, from global market structures to the low-carbon 
energy system, transformation to resilient infrastructure and 
response to a changing threat environment.
    Chairman Olson, Ranking Member Rush, Ranking Member 
Pallone, members of the committee, I look forward to continuing 
to work with the committee and setting the stage for the next 
administration and beyond. I look forward to our discussion.
    Thank you, sir.
    [The prepared statement of the Honorable Ernest Moniz 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Olson. Thank you, sir, and we will begin the questions 
with myself--5 minutes for questions.
    OK. Last year, Congress enacted the Bipartisan Budget Act 
and the FAST Act, as you mentioned. They have provisions to 
modernize the Strategic Petroleum Reserve--the SPR--and improve 
its emergency response capability.
    One of the requirements was for DOE to complete a long-term 
strategic review and report to Congress. That report is out, as 
you mentioned.
    It raised some serious questions about the ability of the 
SPR to meet its mission. My first question is how much oil are 
we supposed to have if we have to draw down from the SPR if we 
have an emergency?
    Secretary Moniz. The designed draw down rate is just over 4 
million barrels a day.
    Mr. Olson. What Is the actual draw down rate?
    Secretary Moniz. Well, that depends very much on the 
specific circumstances but, of course, the whole point of the 
modernization of the SPRO is to improve our distributional 
capability, which has been compromised, actually ironically, by 
the very increase in production that we have seen in oil.
    Mr. Olson. But your reports show the actual draw down is 
more than 2 million barrels per day below the designed draw 
down rate of 4.4 million barrels per day. Are you concerned by 
this?
    Secretary Moniz. Again, we are going to increase that with 
the project that the Congress has authorized and we've 
submitted our appropriation request for the first tranche.
    And if I may just add, Mr. Chairman, that it is urgent that 
that be approved because the authorization was only for 4 
years. So we really need to get on with the project.
    Mr. Olson. How do you suggest to meet the mission to make 
sure the SPR is viable? How should we do that? Any ideas?
    Secretary Moniz. To make sure it is what? Well----
    Mr. Olson. Yes, sir. To prove its ability. To prove its 
ability.
    Secretary Moniz. It's modernization and it is building new 
marine distribution infrastructure in the Gulf region.
    Mr. Olson. Details. Great. The second line of questioning, 
both the House and Senate have passed bipartisan legislation to 
streamline a process for LNG exports and there's more than one 
legislative option to push that across the finish line.
    The House would like to see it included in the defense 
spending bill. It is also under consideration in the Energy 
Conference. Do you agree that LNG exports offer wide-ranging 
benefits to the economy, energy security and maybe even the 
climate?
    Secretary Moniz. The national interest determination that 
we make is precisely to answer those questions and so far we 
have approved and, frankly, since our change of the process in 
2014 we have approved quite speedily every application that is 
ready for action.
    The idea that we are somehow dragging this out is simply 
incorrect. The national interest determination requires us to 
get the appropriate information including, for example, FERC's 
action.
    So right now we have acted on all of the applications and, 
frankly, up to now we've approved them all. Since our 
streamlining of the process in 2014 we have approved them as 
short as one day after having the FERC action to a few weeks.
    Mr. Olson. Let us choose that one day all the time. That 
sounds like a benchmark we should over and over and over----
    Secretary Moniz. I think one day all the time would be 
stretching credulity since there are questions that we have to 
answer. But we have been committed to expeditiously addressing 
these applications.
    Mr. Olson. Thank you. My final question is what areas of 
the federal emergency permitting process need the most 
improvement? Why does it seem to take longer to permit 
midstream energy infrastructure like pipelines than it does to 
pass, site and approve a drilling rig and also power stations?
    How come they are different than pipelines? How come 
upstream is different than downstream and midstream? Also for 
the energy permitting process?
    Secretary Moniz. Well, I think of energy infrastructure as 
a whole. The Congress has, frankly, distributed responsibility 
for different elements of infrastructure among multiple 
agencies.
    DOE has some responsibility. The EPA has some. Department 
of Transportation has some. Department of State has some. Those 
particular issues that you raise certainly are not in the 
Department of Energy's bailiwick.
    Mr. Olson. Should they be? Should they be in your 
bailiwick? Can you take--you would be the big king of the 
jungle, so to speak?
    Secretary Moniz. I think that would be an interesting 
discussion between the Congress and the administration.
    Mr. Olson. Thank you. That's the end of my questions. I now 
yield to the ranking member, to Mr. Pallone, ranking member of 
the full committee for his 5 minutes of questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Secretary, I wanted to ask you some questions on LNG 
particularly related to language in the energy bill on LNG 
exports that is concerning me.
    As you know, applications for LNG export have been 
increasing in recent years. So since revising the approval 
process for LNG applications in 2014, DOE has been able to 
quickly approve applications after FERC completes their review. 
Is that correct?
    Secretary Moniz. Yes, it is.
    Mr. Pallone. And typically, how long does it take DOE to 
turn these applications around?
    Secretary Moniz. As I said, it has been between a day and a 
few weeks, since 2014.
    Mr. Pallone. Now, the Energy Conference is considering two 
provisions that would require DOE to approve an application for 
export within 30 days of FERC publishing the final EIS.
    Proponents argue this deadline is necessary to ensure 
timely consideration by DOE. But given the department's track 
record, I find this arbitrary deadline to be completely 
unnecessary. In fact, it could be detrimental to the ultimate 
approval of an expert application.
    In light of recent events related to the Jordan Cove 
application in Oregon, do you believe it makes sense to force 
DOE to hastily make a decision on an application based on the 
final EIS?
    Secretary Moniz. We have consistently said that we see no 
need for this by performance and as you've said, I think very 
correctly, there can be unintended consequences, in fact, which 
can go in the opposite direction.
    The Jordan Cove, for example, when that was rejected by 
FERC for non-environmental reasons it would have caused a 
problem with the bills as proposed.
    So, we really should be having records of decision by FERC 
in this case or MARAD for an offshore facility because that is 
the complete set of information that informs our final 
judgment.
    Mr. Pallone. Thank you.
    Now, I wanted to ask you about climate change and note that 
climate change has to play--or is significant in terms of 
energy security.
    By lessening our reliance on fossil fuels and reducing our 
carbon emissions we can make our energy future more secure and 
you recognize this in your testimony when you reference the 
vulnerability of our energy systems to climate change.
    So my question is can you talk a bit more about the impacts 
climate change is having on our energy security and what can be 
done to address this important issue?
    Secretary Moniz. Climate change--first of all, we have seen 
just this week that a number of military leaders have pointed 
out how climate change is a risk to our national security 
broadly, which has, of course, energy security implications as 
well.
    Then there are the issues around rising sea levels and 
weather, et cetera. But, of course, the threats of energy 
security ultimately come to fossil fuel supply since we all 
have our own solar supply, et cetera, et cetera.
    So, clearly, as we go into a low-carbon transition we are 
addressing energy security. But in the near to midterm, we are 
also going to have to increase our approach to resilience of 
infrastructure because the many threats associated with climate 
change to our infrastructure are just growing and they will 
grow further. So that's where we need to harden our 
infrastructures.
    We also need to improve our response to the inevitable 
disruptions that we have been seeing--flooding, obviously, in 
the southeast is an enormous issue--for example, wildfires in 
the West, droughts in the Southwest and California.
    We can go on and on with these regional impacts. So we need 
to really think about addressing our security and our climate 
issues in an integrative way.
    Mr. Pallone. Thank you. I am going to try to get one more 
question here and that is about the electricity grid.
    In your testimony you discuss modernizing our country's 
energy infrastructure. We have an electricity grid that 
represents the energy mix of the 20th century and not the 
present, more dynamic state in which we currently exist.
    So in your view, what parts of our energy infrastructure 
are currently the most vulnerable and in need of attention.
    Secretary Moniz. Well, I think there are many parts 
including, as you mentioned, our old natural gas pipelines that 
are a major safety and environmental problem.
    But I would just focus my comments on electricity because, 
as we know, electricity is the grid that all the other 
infrastructures depend upon as well.
    There, we have many tasks at hand. One is we have to better 
integrate resources that are distributed and I think there is a 
lot of consumer and customer interest in more distributed 
generation. But that does not fit the traditional model of how 
electricity is delivered.
    So we have both technical and regulatory issues. But I 
would say one very big overarching issue is that we need to 
really get on with the job, in my view, of a much more complete 
integration of information technologies into the grid both to 
provide reliability and resilience but also to integrate that 
with providing new consumer services.
    So it is really an end-to-end kind of utilization of 
information technology. I think we are just scratching the 
surface right now.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Olson. Gentleman's time has expired.
    The chair recognizes the head of the full committee, Mr. 
Upton, for five minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. It's good to see you. I 
appreciate the relationship that we have had all these 
different years.
    I want to go back to some of the questions as it relates to 
SPRO, and if you're not able to answer, something in writing 
afterwards will be certainly sufficient.
    Some would argue that SPRO should now be eliminated or 
somewhat phased down. It's a relative of the 1970s era when we 
were subject to the Arab embargo.
    I point out that, of course, domestic energy production is 
up and imports are down. Private domestic oil stockpiles are at 
record levels and, of course, we are able to export crude for 
almost a year now and, in fact, we see that happening.
    And there is more than or there is almost a billion and a 
half barrels of crude oil petroleum products in private storage 
so they ask do we really need a government-owned stockpile.
    Now, are we actually required to hold public stocks of oil 
to meet international agreements and how do other countries do 
it?
    Secretary Moniz. Well, first of all, of course, maybe it is 
worth saying that we are still importers of about 7 million 
barrels a day of crude oil. So we have very major imports. We 
are now net exporters of oil products but a lot of crude oil 
imports.
    We are required by our agreements with the International 
Energy Agency, formed in the 1970s, not only to hold strategic 
reserves but also to have a particular share, which is about 44 
percent, of the collective response capability of the OECD.
    Mr. Upton. Is there a mix that's required in terms of 
public and private supplies or not?
    Secretary Moniz. It's done differently in different 
countries. We do it by, obviously, having a physical reserve 
with four locations. Some other countries do it by requiring 
reserves with distributors, for example. So there are different 
ways, but that amount of oil always has to be on call.
    I would say that and we can go into more detail but as you 
opened up your question--``Do we need a petroleum reserve?''--I 
think most vociferously I would answer yes and, again, that's 
very----
    Mr. Upton. I knew that answer which is why I didn't define 
it.
    Secretary Moniz. Right. But again, the issue is, as I said 
in my opening remarks, is that we cannot become complacent 
because we are producing more oil. Because we are and we will 
remain linked to the global oil price, and our economy is 
exposed to that and this is a very, very important tool. It's 
our premier energy security tool.
    Mr. Upton. Let me go a little bit into the maintenance. As 
you know, in the DOE IG report more than 70 percent of SPRO's 
equipment and infrastructure exceeded its serviceable life.
    The report identified five separate major equipment 
failures in the last couple years. I know that we authorized $2 
billion for SPRO modernization, which was intended to go to 
needed repairs and upgrades.
    Is there a focus on major maintenance in the backlog of the 
repairs?
    Secretary Moniz. Yes. So we estimate and we will be 
seeking--well, we've already asked for the first appropriation.
    Mr. Upton. Right.
    Secretary Moniz. We seek $800 million, roughly, for the 
modernization and the upgrading of the equipment and another 
billion, roughly, for enhancing the marine distribution 
capability, which we really need now because of the new oil 
flow patterns with shale oil.
    Mr. Upton. And if that money came through how long would it 
take to complete the work?
    Secretary Moniz. It would be a few years and in fact the 
authorization that you all provided was for 4 years. So we need 
to get on with that now, and it should be finished within I 
think around 3 years.
    Mr. Upton. Thank you. Yield back.
    Mr. Olson. The chairman yields back. The chair recognizes 
the ranking member of the subcommittee, Mr. Rush, from Illinois 
for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Mr. Secretary, it is always good to see you and welcome 
back to the committee and during these waning days of the Obama 
administration I want you to know that to some of us you will 
always be our rock star superstar secretary and we----
    Secretary Moniz. For 128 more days.
    Mr. Rush. Mr. Secretary, it has been indeed a pleasure 
working with you to establish the critically important 
Minorities in Energy Initiative in DOE and sometime before 
those 128 days are up I would like to sit down with you and 
look at the progress and what needs to be done and what we've 
accomplished so far in this particular area.
    So my staff will be in contact with appropriate people in 
order for us to arrange that meeting.
    Secretary Moniz. That would be a pleasure and particularly 
if we could help to set up the transition to the next 
administration to continue that work.
    Mr. Rush. I look forward to it.
    Mr. Secretary, in the House bill there is a provision that 
would have delayed any action on new efficiency standards for 
furnaces until after the department had issued a supplemental 
notice of proposed rulemaking.
    This was a provision that Chairman Whitfield and I put 
together by arranging all the energy stakeholders and all the 
efficiency community stakeholders in a room together and having 
them negotiate directly with each other until a consensus was 
reached. To the best of my knowledge, everyone on both sides of 
the aisle supported that provision.
    However, a little less than 2 weeks ago your department 
actually issued and that stated supplemental notice of proposed 
rulemaking.
    To my mind, Mr. Secretary, you met the bar that we and, 
more importantly, the stakeholders set for you in the House 
bill as a condition for moving forward with the first new 
furnace efficiency standards in almost--in around 15 years.
    Now as we are in conference on the House and Senate energy 
patent we have proposed that the House provision as well as a 
similar provision in the Senate bill be dropped because once 
again, Mr. Secretary, and I emphasize you met the bar that we 
set for you.
    Do you agree that we should let your department move 
forward on the standards now that you have done what we asked? 
And then some of the stakeholders are unhappy and have 
threatened to take this to the courts.
    Should we even let the courts handle this at the American 
Gas Association publically propose or let you and your 
department attempt to respond to these concerns? Isn't it in 
your court and shouldn't it be in your court right now?
    Secretary Moniz. Yes, Congressman Rush, I completely agree 
with you that I think this process has worked well for all 
kinds of efficiency standards.
    We go through the process. We listen, which is why, as you 
said, we heard the input of industry, acknowledged that there 
were some issues raised. That's why we went back with the 
SNOPR, which did establish a new class of small furnaces, 
addressed, certainly, perhaps not all but some of the 
industry's concerns.
    So this is working. We are now absorbing their comments on 
the SNOPR and we would look to try to get a final rule out 
actually this year.
    So the process is working and I think there's a slippery 
slope if one starts to have the process interfered with for 
very specific rulemakings and because we do have a successful 
process that we are executing expeditiously. Thank you.
    Mr. Rush. Thank you. Mr. Chairman, I yield back.
    Mr. Olson. Gentleman yields back. The chair recognizes a 
fellow Texan, chairman emeritus of the full committee, Chairman 
Joe Barton for five minutes.
    Mr. Barton. Thank you, Mr. Chairman. I appreciate that.
    Welcome, Mr. Secretary. We got a few folks in the audience. 
Congressman Gingrey, glad to have you back, sir--former member 
of the committee and I think the subcommittee--and Mr. Bud 
Albright, who's former chief of staff of the committee. Glad to 
have you.
    I can't think of the last time, Mr. Secretary, we had a 
Cabinet secretary volunteer to testify. I am told that you 
wanted to be here. Usually, we got to drag you guys kicking and 
screaming and threatening and all kinds of stuff.
    Secretary Moniz. This is an important discussion.
    Mr. Barton. And so you just said hey, I want to come by and 
visit and we dropped everything we were doing so we could hear 
you. We appreciate that.
    You mentioned in your opening statement the Strategic 
Petroleum Reserve and the FAST Act and the review of the 
function. You all put out a report, as you pointed out, a month 
or two ago.
    That report is a little bit hazy on details. I've had a few 
inquiries in my office about when do you plan to put out, 
perhaps hopefully, for competitive bids some of the big 
projects--the Life Extension project, the Maritime Terminal 
Enhancement.
    Are you going to competitively bid those and if so do you 
have a timetable for when those requests for bids might go out?
    Secretary Moniz. Yes. Well, of course, we need to have the 
appropriation before we can go out and so we have our first 
request in for the first appropriation, which would be focused 
principally on the modernization part. But just last----
    Mr. Barton. So the next year or so?
    Secretary Moniz. Oh, no, sir. Early in the next year. We'd 
like to move out early in the next year and, again, with only 4 
years of authorization we need to be pretty snappy in terms of 
moving this all forward.
    But the----
    Mr. Barton. Snappy is a technical term that you learned?
    Secretary Moniz. Yes. That's right. We have this under our 
formal project management system. The first milestone for the 
modernization was done last year.
    So we are ready to go. The first milestone for the marine 
terminal distribution only just happened last month. So that 
project will kind of be second in line but we will be starting 
the conceptual engineering in the next year.
    Mr. Barton. You answered a question to Chairman Upton how 
important the Strategic Petroleum Reserve is and that it still 
is relevant. But you also answered his question that other 
countries do it differently.
    When we passed the ban--to repeal the ban on crude oil 
exports we also put in a provision to do a study of the SPR.
    I think it would be worthwhile to look at privatizing. You 
mentioned in an answer to Chairman Upton's question you're 
going to need about almost $2 billion to modernize it.
    It would seem that now would be a good time to maybe take a 
page out of the play book of the Europeans and look at 
privatizing the SPR so that the government is not on the hook 
for the maintenance and the modernization. Any interest in 
doing that and while you're moving forward also look at 
privatizing?
    Secretary Moniz. Well, we can certainly make the next team 
aware of that possibility.
    Mr. Barton. You may be part of the next team. You're 
sitting there smiling and volunteering. If Mr. Trump is the 
president he may just ask you to stick around for a while.
    Secretary Moniz. We could discuss that.
    Mr. Barton. Yes. I am about to run out of time here. The 
folks in Chicago just have an attitude. That's all there is to 
it.
    What's your view of the market for crude oil exports now 
that we have repealed that ban and we are exporting crude oil 
and we did it in a way that we really set up a market?
    There is not a lot of bells and whistles in terms of 
government oversight or interference or anything. I think it is 
doing very well and I am very happy that we have brought 
balance to the world oil markets by repealing the ability of 
our domestic producers to export. Do you have any views on 
that?
    Secretary Moniz. Well, I think I would in many ways just 
repeat what I said last year in the discussion because I 
believe it is being played out.
    Certainly, the increase in the amount of exports has been 
very, very modest--about 10 percent--because of course, we used 
to export to Canada but and that's in the context that we still 
import 7 million barrels.
    But what's happened is that there are customers who really 
want the light sweet oil coming out of the shale and so I think 
there's been some optimization of refinery operations in 
various countries by getting some of our light sweet oil.
    It's had some ironic changes. For example, I recently 
visited the biggest East coast refinery in Philadelphia and at 
one point, they were taking 20 percent of the Bakken crude and 
shut off their imports from Africa and now that's flipped. 
They're back to three-quarters African imports as the market 
has readjusted.
    But macro, as I expected, frankly, at least for some years 
I don't see an enormous increase in the exports and that's 
shown because especially the Louisiana Light Index has actually 
been trading even above Brent. So there's not a big price 
differential to work with.
    Mr. Barton. Right. Well, that's the whole point of a 
market. As you know as secretary is you let them actually 
operate and that is in itself a tremendous achievement and over 
time I think it is going to bring benefits to the producers and 
to the--and to the consumer.
    My time is expired. I simply want to say thank you for your 
service to the country. You've always been available to the 
members of the committee. You've always been cordial. Our 
differences have been on policy, not on personality. I think 
you've served your country well as secretary.
    Secretary Moniz. Thank you.
    Mr. Barton. And I wish you the best in whatever the future 
may hold for you.
    Secretary Moniz. Thank you very much.
    Mr. Barton. With that, I yield back, Mr. Chairman.
    Mr. Olson. Gentleman's time has expired.
    The chair recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Well, again, I thank the chair.
    Mr. Secretary, as more renewables come onto the grid and as 
localized generation increases, what future do you see for the 
transmission as a business, going forward, for electrical 
transmission?
    Secretary Moniz. Well, clearly, one of the important issues 
is the ability to integrate large sources, wind and solar, 
typically over large distances. And as we know, there is 
difficulty in the siting and building of these long-distance 
high-voltage lines.
    We did use the congressional authorities given to the 
Department of Energy earlier this year to approve one such 
project that crosses several state borders.
    It's sufficient, probably, to say that is now in 
litigation. But it is very important if we are going to be able 
to really maximize our system for the 21st century.
    We need everything from the very long-distance transmission 
to distributed generation and bringing all of those things 
together is going to require grid and storage solutions.
    Mr. Barton. Well, following up with that question, what do 
you see the business models looking like for the large 
utilities as we get more distributed generation?
    Secretary Moniz. Well, I think that there's clearly a bit 
of a challenge in terms of how these business models evolve. 
And it is not just distributed generation.
    Distributed generation is a very important part of that. 
But I would just also note that our success in demand side 
management is also a challenge to traditional business models 
because, particularly when the pie is getting bigger, when the 
market is getting bigger, there are many more ways of bringing 
in new players. So there is that kind of system.
    And finally, I think--well, not finally but one other 
factor is that the regulatory structures, largely in many ways 
state-based, certainly on the distribution side, clearly, but 
the issue of how to value all the new pieces in the grid like 
storage, like capacity value, like low-carbon value, et cetera, 
we really have not yet managed to solve that problem.
    And so valuation, which will open up new business models, 
will be extremely important and that is a focus of our 
quadrennial energy review work right now that we hope to get 
out in December or so.
    Mr. McNerney. Good. Well, water is an essential component 
to energy security. Can you elaborate on DOE's water energy 
technology team? How are they addressing that issue--the water-
energy nexus in security?
    Secretary Moniz. Yes. Now for the last 2 years we have been 
ramping up this water-energy nexus work and there are several 
elements there.
    One, by the way, that we are focused on besides new 
technologies and we have proposed, by the way, in our fiscal 
year 2017 budget a new kind of, roughly, $25 million a year hub 
around water. It's called ``de-sal'' but it is not just about 
the membranes. It's about the system and how you clean up the 
water and everything else. So that's a focus.
    But in addition, I would just note that from our 
perspective we think the quality and comprehensiveness of data 
on water is not up to where it needs to be, certainly in terms 
of publicly available databases.
    So I think this issue of working on data, working on 
technology and working on the systems issues are all critical.
    Mr. McNerney. Very good.
    Secretary Moniz. And if I might add one more thing, 
international partners are really excited about working with us 
on this, and certainly Israel, which is so far advanced in 
these technologies, is one that we are building up a stronger 
collaboration on.
    Mr. McNerney. And could you briefly talk about the energy 
storage program at the department?
    Secretary Moniz. The energy storage program is also one 
that we have expanded--a lot of congressional interest in that 
and support, which we appreciate. So we have a battery hub, 
which is doing extremely well. It is centered at Argonne. 
Berkeley is the major partner. So that's going on.
    And I might just add we recently put out--maybe a month 
ago--a report on hydro and pointed out that in terms of storage 
we still have a lot of capacity for pumped hydro in the 
country, which today is the most cost effective in the places 
where you can do it.
    Mr. McNerney. Thank you. Mr. Chairman, yield back.
    Mr. Olson. Gentleman yields back.
    The chair recognizes the gentleman from Ohio, Mr. Latta, 
for five minutes.
    Mr. Latta. I thank the chairman very much and, Mr. 
Secretary, thanks for being with us today. It's good to see you 
again.
    And I would like to touch on a couple of areas that you 
brought up in your testimony, one being fixing America's 
surface transportation under the FAST Act, and under the FAST 
Act provides that DOE, with a new authority to protect and 
restore critical infrastructure when the president declares a 
grid security emergency.
    How has this new authority changed the way DOE works with 
the private sector to protect and restore critical 
infrastructure?
    Secretary Moniz. So we are really ramping up that 
intersection. In fact, our Deputy Secretary just hosted a 
meeting with leaders from the electricity sector last week at 
our Sandia laboratory.
    And in fact if I just mention, say, cyber security as an 
example of that, we have developed now with private sector 
CEOs--well, CEOs and people who work for the CEOs--a number of 
tools.
    Partly, it is something called CRISP, and I've forgotten 
what the acronym stands for, but it is a program of much more 
bidirectional exchange and situational awareness about cyber 
threats including the exchange of classified information.
    Secondly, we have developed what's called a maturity model 
which allows the electricity sector--but also we've extended it 
to the oil and gas sectors--to get a much better understanding 
of where they are in their cyber capabilities. And third, we 
have just instituted in August an integrated joint cyber 
activity that knits together all of our capabilities from our 
laboratories on cyber for a faster identification and response 
to cyber threats. That's already shown its potential in a 
particular cyber threat that was identified much faster than 
was done in the industry itself.
    Mr. Latta. Since you brought up on the cyber side and 
especially what's happening there, how's your cooperation then 
working with other departments and agencies in the government, 
especially Homeland Security?
    Secretary Moniz. I think it has been good and is getting 
better. In fact, this information sharing CRISP initiative is 
with DHS and certainly we also work, I might say, not in 
electricity so much--well, it is electricity too but it is 
other areas--we work extremely well with FEMA in terms of 
addressing issues that included some of the flooding issues 
recently, for example.
    Mr. Latta. OK. And the FAST Act also requires you to submit 
a plan to Congress by the end of the year evaluating the 
feasibility of establishing a strategic transformer reserve for 
the storage of spare or large power transformers in emergency 
mobile substations to temporarily replace critically damaged 
equipment.
    Could you tell me what the status of the review is and when 
you would be able to complete that?
    Secretary Moniz. We expect to meet that December target. We 
are well along in that.
    Mr. Latta. OK. And one other thing, if I could, because it 
is one of the areas I am always interested in. In your 
testimony--you also brought it up in our opening statement that 
when you were talking about different threats that are out 
there, either natural or manmade, where are we at on especially 
DOE and trying to combat electromagnetic pulses, especially 
when they are manmade?
    Secretary Moniz. We have done quite a bit of work on that 
in collaboration with EPRI. In fact, this is part of a report 
that we'd be happy to share with you if you get a chance----
    Mr. Latta. Yes, I'd like to get that.
    Secretary Moniz [continuing]. On resilient strategy. That 
was done with EPRI. We also have, of course, classified 
information that could be discussed in a different venue.
    Mr. Latta. Right. Well, thank you very much, Mr. Secretary.
    Mr. Chairman, I am going to yield back the balance of my 
time.
    Mr. Olson. Gentleman yields back. The chair now is happy to 
recognize the University of Houston's biggest fan in Florida, 
Ms. Castor, for 5 minutes.
    Ms. Castor. Well, thank you, Mr. Chairman. He says that 
because the university president used to be the provost at the 
University of South Florida campus. So we take ownership of 
her, too.
    But I want to thank you. At the University of South Florida 
in June at the Patel Center for Global Sustainability, Dr. 
Lidija Sekaric, your director of the Office of Solar 
Technologies, came to give a presentation and the room was 
packed even though we were in the midst of a huge rain event 
due to a tropical storm.
    And I think you're absolutely correct that American 
families and businesses across the country have so much 
interest in the growing renewable marked and the potential to 
save money through energy efficiency.
    In fact, at the end of August during the primary election 
we had a constitutional amendment on the ballot to provide a 
little help to solar industry and it passed by 73 percent.
    And I think folks are frustrated in the Sunshine State 
because we have no goals for renewable portfolio standards and 
they even cut back on energy efficiency.
    So what you say about the business models at the state 
level really hit home and we can talk a little bit more about 
that.
    But the Energy Information Administration is projecting 
that growth in renewable energy is going to grow faster than 
just about any other energy sector and in fact they say over 
the past year we've exceeded projections month after month 
after month.
    You've said, in this QER right now, that it is outdated--
that we've got to look beyond oil security and energy security 
needs to be more broadly defined to cover not only oil but 
other sources.
    Combating climate change is also essential to strengthening 
collective energy security. How far behind are we? I know the 
big grid modernization effort is very important but what else 
do we need to be focused on?
    Secretary Moniz. Well, I think, addressing the clean energy 
part, which were the third, fourth, and fifth principles. There 
the major initiative that we put forward is the idea of 
doubling our innovation budgets over, say, a 5-year period and 
we've been pleased that the concept has gotten very strong 
bipartisan support. That's got to get translated into numbers 
over these years.
    But I think that's very important. I might also add, and 
it'll probably be referred to soon by Mr. McKinley, that I was 
in Morgantown earlier this week for our thirteenth regional 
innovation meeting because we are emphasizing that we think 
regional portfolio management actually will be a real plus, and 
I am pleased to say there's been a lot of support for that, 
too. Now we need Congress to hopefully authorize that.
    So that is on that side. But in terms of the more global 
aspects of energy security, I think since 2014 when those 
principles were put out we had made substantial progress, 
particularly in our discussions with the European Commission.
    The European Commission then adopted a very strong energy 
security policy in line with those principles and we work 
closely with them.
    There is still a lot of implementation to go in the 
European context. But that's been important and I might say a 
lot of it was driven initially by the Ukraine aggression.
    Ms. Castor. I think that's right because what I hear back 
home they think the clean energy future will involve a lot of 
job creation so that investment in innovative technology is 
very important.
    They know it is going to save them money as they take 
control of distributed energy or even right at their thermostat 
in their home and climate change--they see the cost right now 
after this recent tropical storm. They understand. We have salt 
water intrusion.
    These huge rain events are costing people money--flood 
insurance, emergency response--and if we don't do more up front 
it is going to be very, very costly and they understand that.
    Secretary Moniz. And if I may say, I visited Florida Power 
and Light and, yes, they are doing a lot but it costs money to 
harden the system because of the obvious risk to sea level 
rise, et cetera.
    Ms. Castor. Thank you.
    Mr. Olson. The gentlelady yields back and, Mr. Secretary, 
ask and you shall receive. We recognize the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you again, 
Mr. Secretary, for coming to West Virginia to participate in 
that panel and also the trip to Longview power plant that was--
I hope it was beneficial to you.
    I have got a couple comments. I want to build up a bit of 
what my friend from California was talking about because when I 
read the--your written statements and listened to your opening 
statement there were two omissions that I heard.
    One was you didn't talk about water as being part of our 
national and economic security for this country, which I 
thought was made. But even more, so you didn't mention coal, 
other than the fact that gas is going to supplant coal perhaps 
in the near to long-term future.
    So just getting past that, we are just going to have a 
disagreement. I think it deserved to have some mention as part 
of our national economic security of this country on that.
    But let me go to some questions, however quickly. We've had 
testimony from Phil Moeller when he was back with FERC and he 
has since confirmed again that we have apparently--talking 
about grid security and reliability that we have lost 
apparently somewhere in the neighborhood of 70 gigawatts of 
coal-fired power plants around the country and we've been 
replacing them with gas and renewables but more, from what I 
understand, with renewables so it's an intermittent load. It's 
not base load.
    We are still at a net loss but much of that gain that we've 
made that replacement is over in renewables, which we can't 
count on because of their intermittent use with it.
    So how do we--how can FERC--how can Congress get involved 
in valuing just dependable base load power plants, whether 
that's using gas or coal? What do we do to incentivize that so 
we've got a satisfactory grid?
    Because we know there's a fair--we know we can't count on 
wind and solar to power our base load.
    Secretary Moniz. Well, OK. Of course, at the current levels 
of penetration in effect, the grid is the storage system for 
wind and solar.
    Now, as those penetrations--if they get much, much higher, 
of course, then we will have to manage the variability of those 
sources.
    Now, part of it can be, of course, technology like storage. 
Energy storage would take care of that. But your suggestion I 
think goes right to something I mentioned earlier and that is, 
``What is the way of valuing different services in the grid 
that have not been part of the traditional regulated utility 
model?''
    And one of those would be this question of value of base 
load which, by the way, of course, right now that's a major 
issue as well with nuclear with the shutdown of a number of 
nuclear plants as well.
    And so in terms of response, currently I would say that 
there are certainly very few authorities in the federal 
government, certainly at DOE.
    FERC is doing work on what they call price formation, which 
is a question of how do you value these other qualities, and 
states are the center of the action.
    Mr. McKinley. Thank you. I'd like to follow up more with 
you. Maybe we can have more of a conversation about that so 
that we can have more to battle with.
    But you also talked about that energy storage and part of 
the House package and also in the Senate package--the energy 
bill--there is the ethane storage and what we refer to as the 
Appalachian hub so that we would be able to have storage of 
ethane not only on the Gulf coast but someplace in the 
northeast.
    Are you aware of that and do you see an advantage of having 
a--for energy security and national security having a separate 
ethane storage facility?
    Secretary Moniz. I have to be honest, I haven't really 
thought that through. So I really would like to think about 
that and get back to you.
    But I would say that, of course, as we know, in 
Pennsylvania, West Virginia, Ohio there's a tremendous 
opportunity given all the ethane production for building on 
industry and so it is an extremely valuable commodity.
    But, again, specifically on the issue of ethane storage, I 
have to admit I have not thought that through.
    Mr. McKinley. Just in the remaining time I have, just 
quickly. When you met with Longview and they made the statement 
that they are the most efficient and cleanest coal-fired power 
plant in America ahead of Turk but yet they've said they can't 
get a permit to build a second facility to build off that. What 
did you learn at how we could help another facility like that 
be constructed?
    Secretary Moniz. Well, again, as we discussed in 
Morgantown, first of all, we continue to be very committed to 
carbon capture sequestration as a critical technology that we 
will need--and the IEA says that and everyone else says that--
to meet our climate goals most economically. So that's very 
important.
    I thought the proposal that they made there about a 50 
percent coal-firing was quite interesting, and in fact I hope I 
do get a spreadsheet on that to look at, meeting the clean 
power plant goals with the coal and gas coal-firing will be 
quite interesting.
    So I am happy to discuss it. Oh, and a third one, which I 
mentioned as a big game changer if we can really solve it but 
it is probably longer term is the question of ``what are the 
technologies for economic very, very large-scale utilization of 
CO<INF>2</INF>.''
    Mr. McKinley. Thank you.
    Secretary Moniz. That's a big deal if we can solve that 
problem.
    Mr. Olson. Gentleman's time has expired.
    The chair now recognizes the number-one fan of the Houston 
Cougars from Houston, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. It's good to see you again and I 
know each of us have worn different hats over the years and I 
appreciate the job you're doing.
    Let me start out on the Strategic Petroleum Reserve. We 
import now 7 million barrels a day. How long would it take if 
all of a sudden we had an embargo and we couldn't ramp up in 
our own domestic production, which I think we could, to be able 
to draw anything out of the SPRO?
    Secretary Moniz. Well, we could certainly start withdrawing 
from the SPRO. I think it is in a week time frame, something 
like that.
    Mr. Green. OK.
    Secretary Moniz. So it is a rapid reaction. Whereas going 
to the uncompleted wells would be a several month activity.
    Mr. Green. Because I was told it was much longer than that 
because and that's why some of the things we did----
    Secretary Moniz. I will check on that. But I believe it is 
more like a week. It's not so much a technical constraint as it 
is getting sometimes all of the bids required for the 
distribution of the oil.
    Mr. Green. Yes. Because even though we have a great 
pipeline accessing Louisiana and Texas, like you said, the bare 
time issues that we have to actually get it----
    Secretary Moniz. Yes, because of reverse flows in some of 
those pipes to get incremental barrels out is probably going to 
require, as we said, much more maritime distribution.
    Mr. Green. OK. Well, the main questions I have, and you 
talked a little bit about it is that in 2014 one-third of the 
intentional cyber attacks targeted energy infrastructure.
    In your testimony speaking about cyber security you stated 
we are seeing threats continuing to increase in numbers and 
sophistication. This evolution has profound impacts on the 
security and resilience of our energy sector.
    I hope in our hearing today we can understand what's being 
done and on what more we can do in Congress to protect from 
these increasing hazards.
    Of course, it is not just Russians looking at Democrat or 
Republican. But we are talking about refineries in East Harris 
County and Louisiana--you know, coal plants, natural gas 
facilities and things like that.
    What are the most significant challenge in securing energy 
delivery systems against the cyber attacks?
    Secretary Moniz. I would just add, if I may, the point you 
make about the interconnectedness I think is very important and 
as we've pointed out that electricity problems have led to 
enormous refinery and fuels problems, et cetera, et cetera.
    So it is really important and cyber is a growing threat. So 
I think the key is, as I said earlier, working with industry. 
At DOE, let me emphasize, we have, I would say, three different 
kinds of cyber challenges.
    One is a standard big entity, administrative systems and 
personal information. A second is our nuclear weapons 
information. And third, and the hardest one in many ways, is 
working with the private sector on the energy system.
    So it is really information exchange including making 
technology available to the private sector is really a key in 
many ways. A second key for us is to use all of our assets 
including those at our laboratories and bring those to the 
table on cyber threats, and we've done enterprise wide.
    One thing that I would say is, in terms of possible changes 
and maybe legislative--and it is not only for cyber, it is for 
other issues as well--is that we need to make sure that there 
are not barriers which could be competitiveness barriers, for 
example, that are out there for different parts of the industry 
working together on the response.
    Mr. Green. Well, I will close with one example. When we had 
Hurricane Ike come through East Harris County and it shut down 
the refineries in Galveston Bay and both United Airlines who 
said we'd never lighter planes out of Houston and we are having 
to do it and the Air Force was there too, saying--and the Navy 
because we needed to have this jet fuel and so that's why we 
need the grid up.
    Secretary Moniz. Coordination.
    Mr. Green. Each plan has their own but you can't run a 
plant on generators. You have to have the grid to help and so 
that's why it is so important.
    And I know in some areas, like in East Harris County we 
have a partnership both for security and other things. But I 
just want to make sure that everybody is on the same page.
    Secretary Moniz. Yes. The coordination is important. I 
might add that, for example, in May we ran a very big so-called 
tabletop exercise in the northwest with lots of industry 
participation, many agencies, so that everybody could 
understand the challenges of everybody working together on the 
same page. So that's important.
    Another thing I'll just mention is that, because the SPRO 
was mentioned, even though it is much smaller, we have moved 
out in a couple of product reserves as opposed to crude oil 
reserves and that came into play in Sandy when we released that 
to some of the first responders so that they would have the 
fuel to respond.
    Mr. Green. Yes, the diesel and everything else.
    Secretary Moniz. And so that's another interesting 
discussion.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Olson. Gentleman yields back.
    The chair now recognizes the gentleman from the 
Commonwealth, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Secretary. Thank you 
for being here as well.
    The last time you were before this committee back in March 
I expressed my appreciation for the folks at Department of 
Energy working with me to set up a visit to my district to 
discuss the future of coal.
    About a month later, David Mohler, DOE's deputy for clean 
coal and carbon management, came down to our coal field region 
for a round table discussion with community leaders. A public 
symposium at the University of Virginia's College at Wise was 
held on the future of coal technology, innovation in industry.
    And I'll also highlight after we did that with all the 
opinion shapers and the business leaders and the folks who work 
in the coal industry your team went over to Clintwood, which 
doesn't get many visitors--there's no four-lane highways in 
Dickinson County--to visit students at Ridgeview High School, 
which is a brand new high school built with a lot of dollars 
from the federal government because the county is not wealthy. 
It is central Appalachia and the coal fields, mountains, trees, 
and lots of good people and not a whole lot else.
    That visit was particularly important for the students 
there in Dickinson County because your team made it clear that 
there are possibilities in science that can affect the coal 
industry positively. It was just a great visit and I commend 
your folks for doing that.
    I also commend you for having the leadership to have 
folks--I heard you talking about with some of the other folks 
visits that had been made by yourself and members of your team 
in other districts as well.
    I think that speaks highly of the work that you're doing. 
And while we may not always agree----
    Secretary Moniz. Thank you.
    Mr. Griffith [continuing]. With your leadership at the 
Department of Energy we are headed in a better direction and I 
appreciate that.
    Secretary Moniz. May I say, Congressman----
    Mr. Griffith. Please.
    Secretary Moniz [continuing]. That because maybe it has 
been provided to you but just to make sure--actually at the end 
of August we produced I think a very nice synthetic paper on 
all of the coal issues that we are dealing with and if you not 
seen that we'll shoot it to your office.
    Mr. Griffith. I haven't seen it but my staff may have it 
and it has been one of those busy times in DC, as you know, 
when I have a few weeks. But I'll try to read that when I get 
home.
    Secretary Moniz. OK.
    Mr. Griffith. But we had a lot of good discussions and we 
talked about a lot of different things on how we can get our 
coal miners back to work, how we can find a continued future in 
the coal region and our economy and in our electric generation 
fleet.
    It meant a lot to the people of southwest Virginia and 
particularly in the coal fields in those counties. So I 
appreciate the hard work that you did in making all that 
happen.
    Now, one of the main things that I found particularly 
interesting in our discussions is we talked about the need for 
research parity for clean coal technology, and while you've 
touched today already on some of the things with carbon capture 
and sequestration, I think that's the hot button issue and 
probably a good source in the short run. But with research I am 
convinced we can use our fossil fuels--not just coal but the 
other fossil fuels as well in better ways.
    Can you just take a minute and discuss some of the things 
you all are working on with all of the different fossil fuels 
and research and the importance of having parity with--there's 
nothing wrong with renewables but parity in that research 
because we are going to continue to need the fossil fuels as 
well.
    Secretary Moniz. Well, first of all, on carbon capture I 
want to emphasize that's not only about coal. Coal is, 
obviously, kind of the marquee application in many ways but I 
believe ultimately we will need it for natural gas and, very 
importantly, for a whole variety of industrial facilities. We 
also support ethanol plants and natural gas processing plants, 
et cetera.
    So that's important, and I want to emphasize, we have spent 
$5 billion on CCS. We also have an $8.5 billion loan guarantee 
program open right now for fossil technologies, et cetera.
    But one of the things that really excites me for the longer 
term--and I just mentioned one example of really breakthrough 
carbon management possibilities would have enormous 
implications for how fossil fuels then can be used in the 
energy economy--one of those is, as I said, the potential for 
really big-scale CO<INF>2</INF> utilization. And if I toss out, 
like a holy grail of that, sunlight, water and CO<INF>2</INF> 
to hydrocarbon fuels, that would be a complete game changer. 
Some in the fuels industry would be challenged. But that would 
be, for example, a game changer. There are negative carbon 
technologies that we should pursue.
    So I think, in terms of coal, when I say coal there's three 
big thrusts. One is the innovation agenda around things like 
CCS, et cetera.
    Another is the transitional assistance to economies and 
workers in coal country and we just issued $39 million there. 
And then third is these really big breakthrough possibilities 
that could change the entire carbon management equation.
    Mr. Griffith. Thank you. My time is up. I yield back.
    Mr. Olson. The gentleman yields back.
    The chair now recognizes the gentlelady from California, 
Ms. Capps, for 5 minutes.
    Ms. Capps. Thank you, Mr. Chairman. And I want to echo what 
my colleague, Mr. Barton, said earlier and thank you for--
you're a pretty regular witness here on our committee over your 
tenure at the White House and you have been by all appearances 
very willing to answer all kinds of questions on this, which is 
a most pressing topic. So I thank you for the time you've spent 
with us.
    Your testimony today indicates this is a timely and 
pressing issue before us. We are currently in a conference 
level committee trying to negotiate an energy bill that will 
help define our energy landscape for the next decade.
    At the same time, we know these threats from climate change 
are real. So bold action needs to be taken.
    Communities across the nation are already facing the 
threats of climate change. In fact, I don't call it a threat 
anymore as much as dealing with the outcomes which we are 
experiencing, whether through increased storm severity or 
flooding or, as in California, the crippling impacts of our 
drought. My area--5-year drought.
    We're building a desal plant. It's very expensive and the 
technology is pretty precarious. And the massive forest fires 
that we've had to deal with are very costly, too.
    So I believe it is time we stop considering these 
conditions as anomalies and start addressing them as the new 
normal and we start implementing strategies not only to adapt 
to these scenarios but to the extent possible mitigate them by 
reducing our contributions to climate change that's happening.
    President Obama has made real progress in laying out a 
framework to start this transition but there is a lot more work 
that needs to be done.
    We must expand the implementation of existing green 
technologies such as solar power and increased energy 
efficiency and invest in the new technologies that will carry 
us into the future.
    Many of our research universities are really leading the 
way and doing this, which will benefit not only our energy 
security but our national security and our economy at the same 
time.
    You mentioned this in your opening statement but I'd like 
to give you a little more time to discuss the ways renewable 
energy and investments in renewable energy and efficiency will 
bolster our energy and national security.
    Secretary Moniz. Yes. Well, the answer to the last part is 
pretty straightforward. Again, the renewable technologies are 
not looking at--there's no issue of importing or exporting the 
fuels.
    Ms. Capps. Right.
    Secretary Moniz. It's what we have and that's true anywhere 
in the world, basically. The mix may be different but that's 
true anywhere.
    So the importance of this as an element of our energy and 
national security is, I think, quite clear. Now, in terms of 
moving the ball, again, I, of course, am maybe not totally 
objective but I think innovation is absolutely the core to 
this, and that's good news for us because we lead in innovation 
and we've got to stay the leaders in innovation. Particularly 
because, as one of our CEO friends in the industry, Tom 
Fanning, the head of Southern Company, says you can't keep the 
waves off the beach.
    We are heading in this direction inexorably in terms of 
lower carbon and the Paris Agreement, no matter what one thinks 
about it, it tells you that we are developing a multi-trillion 
dollar global clean energy technology business. So we also want 
to be at the head of that train.
    Now, cost reduction is critical and we, through innovation 
and through deployment--they work together. More deployment, 
more innovation drives those costs down. We've seen that now 
for solar PV. We've seen it for wind.
    We've seen it for LEDs, which is not quite renewable energy 
but uses less energy, and now we have to keep that kind of cost 
reduction pathway going and do it for carbon capture and do it 
for nuclear and do it for offshore wind as opposed to the 
onshore wind progress.
    So we've just got to keep at this across the board. I 
remain an all-of-the-above guy aimed at a low-carbon future 
where hopefully all of our industries, all of our people can be 
part of that solution.
    Ms. Capps. That's right. And just the right amount of time, 
but a word to say thank you because this path of progress 
during your administration, your leadership at the department 
and to the extent that we were able to work with you has really 
made, I hope, significant progress.
    Although, as I said, there's a lot more work to be done but 
hopefully this is a movement now that will not be questioned as 
much as it used to be but that we'll see it as progress all 
along the way.
    Secretary Moniz. Innovation. Innovation.
    Ms. Capps. Exactly. Innovation. That's a great word.
    Thank you.
    Mr. Olson. The gentlelady's time has expired. The chair now 
recognizes a fellow Texan, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for joining us today. The U.S. is 
now the leading producer of oil and natural gas and how is this 
new age of energy abundance benefitted our global 
competitiveness and allowed the U.S. to position itself as a 
global superpower?
    Secretary Moniz. Oh, it has had an enormous impact on 
natural gas, first of all. First of all, we have not become 
major importers of LNG. Now we are going to be exporting LNG. 
We expect to be net natural gas exporters in 2017. But 
domestically it has both led to a tremendous renewal in 
manufacturing--$170 billion capital invested in just in the 
kind of the chemical arena and, by the way, also reducing 
carbon emissions.
    On the oil side, again, we remain very large crude oil 
importers but the dramatic decrease in our net oil and oil 
products imports has had a tremendous balance of payments 
impact.
    Both of them have changed the world energy scene and we are 
now looked at in a very, very different way.
    Mr. Flores. Right. You haven't even talked about the 
geopolitical implications.
    Secretary Moniz. That's what's I meant. Geopolitically we 
are looked at in a very, very different way.
    Mr. Flores. Right. Right. I am talking about from a world 
security, world stability standpoint. But that's for another 
day.
    So moving on, you've talked about the failure of our 
nation's infrastructure to keep up with the new dynamics that 
we have in this energy industry not only with respect to 
transmission of electricity but also transmission of oil and 
natural gas.
    And so the lack of capacity and the recent opposition to 
new infrastructure means that the average consumer pays more 
energy than they should. Are we headed for price spikes again 
this winter because of the lack of infrastructure under the----
    Secretary Moniz. Well, I would not want to predict. But, 
obviously, there's a vulnerability if the infrastructure is not 
there. Another polar vortex or who knows what would happen.
    Mr. Flores. Right.
    Secretary Moniz. But also with that, it is not even just 
wires and pipes but also, as we pointed out in the QER, inland 
waterways, ports, et cetera.
    Mr. Flores. Right. Right. And also cyber as well.
    Secretary Moniz. Cyber, yes.
    Mr. Flores. Cyber issues. Your QER devotes an entire 
chapter to improving North American energy integration. But it 
makes no mention of the issues that arise with cross-border 
presidential permitting, in general or in particular the 
Keystone XL Pipeline.
    Do you agree that our current ad hoc or siloed permitting 
process, as the QER puts it, creates significant uncertainty?
    Secretary Moniz. Well, that's what the QER said so 
therefore we back it.
    Mr. Flores. All right. You agree, since it said it.
    So that goes to the next question. That is, how has the 
inability to render a decision on the Keystone Pipeline 
impacted other energy projects?
    Secretary Moniz. I cannot say that I've seen any impact, to 
be honest. Again, I think the QER pointed out--I've forgotten 
the exact number but we have a lot of infrastructure crossing 
the border and, certainly, our electricity systems are 
essentially integrated with Canada and now with Mexico. There's 
going to be increasing integration there as well.
    Mr. Flores. Right. Right. Are you----
    Secretary Moniz. In fact, Texas and Mexico, as you know, do 
trade electricity.
    Mr. Flores. Right. Oh, absolutely. We already trade. Texas 
leads the country in all this.
    Secretary Moniz. Correct.
    Mr. Flores. Including wind power as well so----
    Secretary Moniz. Yes.
    Mr. Flores [continuing]. Let me ask you this. Are you happy 
with the time it took to reach a decision on Keystone?
    Secretary Moniz. I think that's a question for the 
Department of State. That's not my responsibility.
    Mr. Flores. Oh, OK. All right. I mean, you're the--you're 
the head of DOE so you've got a dog in this hunt.
    Secretary Moniz. That's a question for the Department of 
State.
    Mr. Flores. All right. OK.
    Is there room to establish a more uniform coordinated 
modern process for the consideration of cross-border pipelines 
and electric transmission facilities? I am sure you've got an 
opinion on this.
    Secretary Moniz. Well, I think that what's--the only thing 
I would say more broadly, and it does apply to other DOE 
responsibilities, is I think the Congress has, for good reason, 
over the years put in all of these statutory assignments, the 
idea of national interest determinations, and I think that's 
what we do for LNG exports. And that's what state does for 
their responsibilities. We also have it for cross-border 
electricity lines.
    Mr. Flores. Of course, in my opinion, this is an area where 
Congress needs to get involved and clean up the statutory 
underpinnings of the decisionmaking process in this regard. And 
so I am assuming you'd be willing to provide technical 
assistance to Congress in trying to formulate this?
    Secretary Moniz. We are always happy to provide technical 
assistance.
    Mr. Flores. Thank you very much and I yield back the 
balance of my time. Thank you.
    Mr. Olson. The gentleman's time has expired.
    The chair now calls upon the gentleman from Pennsylvania, 
Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, thank you for your service. 
I've been in Congress 22 years and been through five or six 
secretaries of energy. You're by far one of the best and you're 
going to be missed here. So I want to say that right up front.
    Just two quick things. I know we all agree on the 
importance of carbon capture, utilization, and storage. There 
is international consensus that it would be very difficult if 
not impossible to meet our climate change goals by 2050 without 
this in place.
    And also, without additional investment in the electricity 
sector--if we try to limit global warming to the 2 degree 
scenario without it it is going to cost $2 trillion over the 
next 40 years.
    So it is not only necessary to meet the goal but it is 
necessary to meet the goal in an affordable way. Now, I know 
the white paper that you issued recently listed several bills 
here in Congress which would change tax credits or financing 
options or CCS.
    But my question is do you think what we are doing is 
substantial enough and what other options might we pursue? It 
seems like we have been talking about CCS forever but it 
doesn't seem we are any closer to actually seeing, you know, 
implementation of this technology on a scale where it can be 
helpful.
    And as you said, it is not just coal. It is natural gas, 
too. And what do we need to do to sort of make this a moon shot 
and get this technology out there?
    Secretary Moniz. Well, I think, in terms of where we have 
come, how far or how not far, depends on how you look at it, we 
have come--of course, the point is that there has not been a 
price signal to the private sector there, and I think that's 
what we need to have for sure.
    And I would just make another point, if I might, on this 
kind of finance side. As you know, the administration has 
proposed now for 2 years tax credits for carbon capture, both 
investment tax credits and storage credits.
    In Congress there is a lot of discussion around 45Q, as 
they have some different numbers but fundamentally it is the 
same idea.
    I think a point that has not been appreciated enough and is 
why I think Congress addressing this with some urgency is 
called for, is that big capital expenditures by utilities, by 
investors, et cetera, have a long gestation time, and I think 
that there are two signals that would be very powerful for 
pushing on CCUS.
    One would be something like these tax credits that were put 
in place for a long period of time. OK. Now I understand what I 
am getting into and, secondly, of course, is the clean power 
plan does that through the regulatory approach. There are other 
approaches, obviously, including a direct one.
    But all I am saying I think signals now--it is not saying, 
look, CCS might be a big deal in 2030 so let's wait. You need 
the signals now if you're going to get those investments made.
    Now, on the research side, it goes back to this need to 
increase our innovation investments. Now, in fiscal year 2016 
and 2017, we are moving forward into pilot project scale--10 
megawatt scale for alternative technologies.
    We could take a lot bigger steps with more resources. So I 
think those are the two areas that are kind of that signal side 
on finance and carbon management and the innovation.
    Mr. Doyle. Thank you.
    Let me ask you quickly about nuclear energy, too. We are 
seeing some of these premature nuclear plant retirements and 
that could cause a threat to our diversity in power generation.
    And I know during the summit you emphasized some of the 
valuable attributes that nuclear plants provide like carbon-
free electricity, high availability, reliable service, fuel 
diversity, and explained that these are not systematically 
valued by electricity markets.
    You further stated that the department is prepared to take 
action to help address the economic market and valuation 
challenges for nuclear power.
    So could you explain the actions that the department has 
taken since the nuclear summit to ensure that nuclear plants 
are compensated for the energy security, reliability, and other 
benefits they provide to the electricity sector?
    Secretary Moniz. We don't have the authorities to take 
those regulatory actions. But what we have been doing and are 
doing are the studies of how to value those attributes and then 
that will lead to some recommendations in our quadrennial 
energy review second installment at the end of the year.
    So that's one thing. Now, it is true we also continue to 
have discussions with FERC, which does have some authorities in 
terms of the price formation at the wholesale level. That's 
going on.
    But of course, a lot of the action is at the states and 
certainly, one of the notable actions was the New York 
initiative in August for the so-called clean energy standard, 
so a kind of technology-neutral carbon approach. That's very 
important.
    Now, the other thing is, in terms of the nuclear plants 
shutting down is, clearly, the clean power plant implementation 
plans and we are rather confident on the court side. 2018 is 
when the implementation plans are due.
    Now, it would seem ironic to have lost zero carbon assets 
just as states are going forward with implementation plans.
    So that's why something like the New York activity and 
Illinois is considering something similar, I think, are quite 
important.
    Mr. Doyle. Thank you. Thank you very much.
    Mr. Olson. Gentleman's time has expired. The chair calls 
upon the gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and Mr. Secretary, I 
do want to echo the comments of some of my colleagues. It's 
been a pleasure working with you over the last few years.
    As we talk about these important ideas around energy 
security I am glad to hear you say that you remain an all-of-
the-above advocate.
    I certainly hope that as you transition--assuming that you 
transition out someone else transitions in--that you will pass 
that advocacy on to your successor in the sense that we--one of 
these days, because we are problem solvers here in America--we 
always have been.
    You look back throughout our history. We won't go through 
the litany but there have been a lot of them. Someday somebody 
might solve the problem, I suspect, of harnessing the sun's 
energy and storing it up so that it can be made available on 
the energy grid for base load. Same thing with wind energy, 
other alternative energy forms.
    I just hope that we can return once again to kind of a 
common sense approach to an all-of-the-above energy policy 
where we don't throw out the baby with the bathwater and we are 
not killing jobs and that we are looking more for market-driven 
solutions rather than solutions from inside the Washington 
Beltway because I think the American people are screaming for 
that.
    And I don't think we can forget about the impact that we 
have made to our communities that have served our energy and 
national security needs and I hope that we can continue to work 
together throughout the rest of your tenure and that you also 
pass along the importance of finding a long-term funding 
solution for those funding challenges at DOE's cleanup sites 
like the Piketon facility.
    Those are very important that we keep those projects on a 
path to completion so that we can redevelop those properties 
and put them back into good use for the communities that have 
given so much already for our energy future.
    Mr. Secretary, DOE, as you well know all too well, is 
central to America's role in international, civil, and nuclear 
commerce markets through what is known as the Part 810 process.
    Under the Atomic Energy Act, DOE authorizes certain foreign 
interactions such as technology transfer and assistance on 
commercial nuclear power plants provided by our domestic 
nuclear industry.
    This authorization process has been the subject of scrutiny 
from both GAO and this committee due to a long bureaucratic 
approval process and I recognize that DOE has been working to 
address these criticisms over the last several years by 
developing and implementing an updated streamlined process. Are 
you the deputy secretary monitoring progress of these reforms?
    Secretary Moniz. Yes. Yes, we are, in fact, and I would be 
happy to share with you some data that I saw just maybe 2 
months ago, I think, in terms of some progress actually in 
terms of shortening the times. Because one of the issues we 
have managed with the interagency because DOE is responsible, 
again, but yet we work with state and other agencies and what 
we have, I think, succeeded in is eliminating a lot of serial 
activity with some parallel activity. And so the data suggests 
that there has been some progress. I'd be happy to share those 
with you.
    Mr. Johnson. OK. All right. Can you send that over to us?
    Secretary Moniz. Yes.
    Mr. Johnson. That would be great. That would be great.
    In the remaining time, I understand DOE after two years of 
talking about it has not yet deployed its electronic tracking 
system to incorporate transparency and accountability into the 
process and assist applicants.
    What is the source of that delay and do you have an 
estimate for when this new tracking system will be active?
    Secretary Moniz. On that, I'll have to get back to you and 
respond for the record. I am just not up to speed on that.
    Mr. Johnson. OK. You can--you can respond back on both of 
those. That would be great, Mr. Secretary.
    Good luck to you. I too have enjoyed working with you and I 
appreciate your sound reasoned approach on most of the issues 
that we have dealt with here.
    Secretary Moniz. Thank you. And Mr. Chairman, may I just 
make----
    Mr. Olson. Yes, sir. Absolutely. Absolutely.
    Secretary Moniz [continuing]. I am going back to the 
congressman's earlier statements. On the job creation front, I 
do want to emphasize that things like the renewable space, 
energy efficiency, we have had tremendous job growth.
    So certainly in the energy sector--and I am not talking 
about oil and gas production. There is that, too. But we have 
had tremendous job growth net.
    But we also recognize that there are distributional issues. 
That's not a uniform issue and that's why working with our 
communities and talking about transitional activities is quite 
important.
    But the net job growth has been actually quite substantial. 
Just solar alone is over 200,000 full time jobs.
    Energy efficiency jobs, which are a little bit hard to 
define, I would also be happy to share with you an energy jobs 
report that we did earlier this year. It was quite surprising--
1.9 million jobs associated with energy efficiency in the 
country.
    But we have distributional problems and, obviously, 
Appalachia is prime among those.
    Mr. Johnson. Yes, and the coal industry and the job losses 
associated with that. It's pretty hard to get my folks to look 
at a jobs report that shows all of this optimism that you're 
reflecting when we are seeing communities go into shutdown mode 
because of the coal industry.
    I yield back, Mr. Chairman.
    Mr. Olson. The gentleman's time has expired. The chair now 
calls upon the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair, and Mr. Secretary, thank 
you for your bold leadership and for your visionary approach to 
what is a very difficult policy area, and we as a nation have 
prospered from your knowledge base and your determination to 
make a difference and----
    Secretary Moniz. Thank you.
    Mr. Tonko [continuing]. For the leadership of the past and, 
I am certain, into the future, thank you. Thank you for leading 
us.
    The major player in our energy arena--the utilities--in the 
past the tradition was spin those meters, assess the bills, 
print those bills to the customer and all functioned.
    As we transition to transform with technology, with 
renewable, with research, with distributed generation, with 
customer choice, how do we bring the utilities along in that 
effort to make certain that they are able to be as strong a 
player as possible assisting the growth of commerce and 
responding to quality opportunities to the residential base and 
commercial base they serve and at the same time address 
national security?
    There is a big challenge there as we transition and 
transform. How can we best assist in that effort?
    Secretary Moniz. Well, I think with the link to security, 
certainly, a critical element is their responsibilities and 
maybe opportunities to address resilience and reliability 
together because that's a new challenge.
    Now, that has to be typically, of course, appropriately 
internalized in rate structures, which tends to be a state-by-
state activity.
    So I think the Congress would have to think through how it 
wanted to do that intersection with the states. Perhaps by 
incentivizing the build-out of infrastructure that we need, 
particularly for resilience against that entire threat spectrum 
that I mentioned earlier including climate-induced threats, 
physical threats to cyber, and the like.
    So I think that is a very, very important part. A second 
part which, again, would typically be at the state level 
because it involves the distribution system, as opposed to the 
high voltage transmission lines, is the question of what are 
utilities able to do regulatorily, and what are they able to do 
in a business sense in terms of bundling new services to 
customers along with electricity supply. Because, again, as I 
said earlier, we don't anticipate a big growth in electricity 
demand.
    Maybe even eventually decreasing demand, even as the 
economy grows. And then that means the business model needs to 
evolve as well--probably into new services.
    Mr. Tonko. OK. Well, as you know, in New York, my home 
state, the REV process is underway and everyone is waiting for 
what that produces because it does, I think, look very 
strategically at the transformation taking place in this 
industry.
    And, again, with having lived through Super Storm Sandy, we 
saw what worked and what didn't. Distributed generation had a 
major plus report card after that aftermath of Super Storm 
Sandy. So----
    Secretary Moniz. Right. And New York is certainly a leader 
and also, I might say, not in the policy arena but also 
integrated with its very strong NYSERDA and the strong R & D as 
well at a state level.
    Mr. Tonko. My old digs before I came here so thank you for 
mentioning them.
    What do commitments to Mission Innovation, and other 
investments in clean energy research mean to a stronger outcome 
for national security?
    Secretary Moniz. Well, I think it is absolutely critical 
because, as we said, first of all, the whole clean energy push 
is part and parcel of a modern energy security picture.
    So I've said it before that I think that--well, I've said 
it also here--there is also an enormous economic opportunity 
that we have to take advantage of, and it wasn't exactly a 
question but I want to emphasize that the question of doubling 
our innovation budget raises the question of, ``do you have the 
capacity to absorb it well?''
    I think we have so much unused capacity for innovation in 
this country that that will not be a problem and I can go 
through examples, like, with ARPA-E, for example, where we are 
funding, you know, 2.5 percent of the proposals in a program 
that is by any logical measure extremely successful.
    So I think there is a big payoff for us in the economy, in 
environment and security with that kind of investment.
    Mr. Tonko. I agree. Having watched some of those 
activities, the ripple effects of sound paying jobs that are 
associated with that too is also a shot in the arm for the 
economy.
    Secretary Moniz. To me, it is that and the infrastructure 
renewal agenda which is just absolutely critical.
    Mr. Tonko. Again, Secretary, thank you and we are all made 
stronger because of your leadership.
    Secretary Moniz. Thank you.
    Mr. Olson. The gentleman's time has expired.
    The chairman calls on the gentleman from New York, Mr. 
Engel, for 5 minutes.
    Mr. Engel. Mr. Secretary, you get two New Yorkers in a row. 
That's pretty good.
    First of all, I want to add my voice to the thanks and the 
accolades that have been given to you. You have been 
accessible. You have been intelligent. You've been just 
terrific, not only with Energy and things that this committee 
does but, on the Iran deal you were right up front and 
answering questions. And we didn't always agree but you were 
always brilliant so I want to just thank you for your hard 
work.
    Secretary Moniz. Thank you.
    Mr. Engel. We really appreciate it. I want to start by 
talking about offshore wind energy. That hasn't really been 
talked about very much here today. A small percentage of our 
global wind energy is generated offshore and much of the 
capacity is in northern Europe. But we are now starting to 
invest here in the United States.
    The first offshore wind farm is set to begin commercial 
operation in early November and several others are being 
developed. And in New York the Long Island Power Authority is 
currently working to approve a 90-megawatt wind farm that would 
become the largest in the United States.
    So can you talk a little bit about that, what your take is 
on the future appetite for offshore wind generation in the 
U.S.? What are the challenges, security or otherwise, that the 
federal government needs to address with this?
    Secretary Moniz. Yes. Well, this is a very interesting time 
for offshore wind. As you mentioned, the Block Island project--
the 30-megawatt project will be--actually they finished 
construction and they will start getting into the grid in 
November. So that's the first U.S. offshore wind farm.
    Number two, actually last Friday, Secretary Jewell and I 
released a jointly developed offshore wind strategy, and if you 
haven't seen that we'd be happy to shoot that over to you----
    Mr. Engel. Thank you.
    Secretary Moniz [continuing]. To lay out a bunch of the 
issues. And by the way, one of the issues is not just kind of 
the technology we think about but there is a lot more data we 
need to understand the development of offshore wind.
    Third, I do want to emphasize that in the Block Island 
project there is really excellent collaboration between the 
wind people and the Wildlife Federation protecting whales and 
this kind of thing. So I think that's an important part of the 
development. That's kind of going well.
    Then I think we are now also moving into an arena where we 
will start to see floating platforms and we have three pilot 
projects--one in Maine; one in Jersey-New York area, 
Fisherman's Wharf; and one in Lake Erie, the so-called North 
Coast--that are looking at novel technologies.
    The Maine project in particular is a floating platform that 
will ultimately be for deepwater. There is discussion of a 
massive deepwater wind farm off of Hawaii as well. So I say all 
of this that I think it is the same story I said earlier. 
Technology, development and deployment going hand in hand to 
drive cost down. So I think we are now at that place for 
offshore wind where we can anticipate that kind of trajectory 
of getting the cost down.
    Now, the Block Island project PPA I think is 24 cents per 
kilowatt hour. Of course, for an island like that, that is a 
lot less than they are now paying by bringing in diesel fuel.
    So I think we are at that beginning of that virtuous cycle 
of technology and deployment and cost reduction and then we 
will see much more.
    Mr. Engel. It's really exciting. I want to talk about one 
other thing and that's--your testimony, which we have read, 
touched on the increasing electrification of certain aspects of 
our economy including telecommunications and transportation and 
I want to talk a little bit about how the relationships among 
these sectors apply to the emergency response capabilities.
    Let's talk a little bit about Hurricane or Super Storm 
Sandy. When it hit the East coast in 2012 it is impact on 
energy infrastructure was, obviously, especially devastating 
and it illustrated in many ways that our energy systems were 
vulnerable to disruption because we all know more than 8 
million people lost power and field distribution networks were 
paralyzed and service stations couldn't pump gas into New York 
and New Jersey and critical terminals for petroleum and 
petroleum products were badly damaged.
    Since that time, we have instituted a wide range of 
policies and procedures designed to better protect our citizens 
and infrastructure and we have made tremendous improvements. 
But it is still a work in progress.
    Mr. Tonko talked about distributed generation. In your 
view, what are the biggest remaining vulnerabilities that need 
to be addressed and what steps should the government and the 
private sector take next?
    Secretary Moniz. Well, certainly for Sandy and, obviously, 
Katrina and Rita and go through the list--certainly, in the 
coastal areas the reality is that we have to be preparing much 
more and hardening our infrastructure for the inevitable, 
continually increasing sea level and water temperature which 
both contribute to the amplification of storm surges and the 
damage that we have seen.
    So there is a lot of blocking and tackling there that we 
have to do. I mentioned earlier, for example, Florida Power and 
Light. They are going through replacement of all the, 
essentially, the wooden poles. They are worried about the 
substations that are in flood areas.
    But as they are doing it and I am sure they could do other 
things too but I give them credit, as they do the kind of 
straightforward hardening, at the same time they integrate 
smart technology.
    So they are getting resilience, reliability, and the 
possibilities also of more information for managing the grid. 
So I think there is a lot of that that we have to do.
    A second point I'll make and, again, in New Jersey, we did 
a project with our Sandia laboratory after Sandy to design a 
major micro-grid system with distributed energy that will 
sustain the electrified transport corridor, which is a critical 
public safety issue. That went down, too, with Sandy.
    So there is also now getting that kind of micro-grid 
structure to make sure that really critical pieces of 
infrastructure can operate during these storms. So that's 
important, and there is a whole string of things but those are 
some examples.
    Mr. Engel. OK. Thank you, and once again, thanks for all 
you've done. We very much appreciate it.
    Secretary Moniz. Thank you.
    Mr. Olson. The gentleman's time has expired.
    Mr. Secretary, it is over. I want to close by saying thank 
you so very much for your patience, your expertise and your 
frankness.
    In Texas, we say you're a straight shooter. That's a very 
high compliment. No matter what happens in the future, I want 
you to know you have a standing invitation to come to Texas 22, 
my district, to see the Petra Nova project up and running.
    A big part of that at MIT and at DOE, as you know she's 
coming online this December. She will capture 95 percent of the 
CO<INF>2</INF> out of one stack of carbon that's powered from 
coal, capturing 95 percent of CO<INF>2</INF>, use it to get an 
old oilfield about 65 miles south.
    It's the first economically viable carbon capturing 
sequestration project in America and a big project. So thank 
you, thank you, thank you.
    Secretary Moniz. And we are excited about it.
    Mr. Olson. We are as well. Give us a little more time. Best 
barbecue at the Swingdoor up there in Rosenberg and actually 
pop by also Bob's Taco Station, the best tacos in Fort Bend 
County.
    With that, members, you have 5 days to submit questions for 
the record.
    Without objection, this hearing is adjourned.
    Secretary Moniz. Thank you.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    The Subcommittee on Energy and Power has accomplished a 
good deal to say yes to energy and update and improve the 
nation's energy policy, and the American people are beginning 
to see the economic and energy security benefits. The 
Department of Energy has been a partner in these efforts, and I 
welcome back Secretary Moniz to discuss what we have already 
accomplished and what we hope to do in the years ahead.
    The most direct benefit of America's newfound energy 
abundance can be seen at gas stations in Southwest Michigan and 
across the country, where fuel prices have dipped toward $2 per 
gallon, even in the midst of serious Middle East turmoil. This 
would not have been possible without the tremendous growth in 
domestic oil output along with the emergence of a North 
American energy market that now plays a prominent role on the 
world stage. We are also seeing abundant natural gas supplies 
and modest prices, which of course is critical as we head into 
the cold weather months.
    But the benefits go well beyond cheaper fill-ups and more 
affordable heating bills. Energy has been one of the most 
important drivers for economic growth, and with expanded 
domestic energy production, reduced reliance on foreign 
imports, increased energy efficiency and productivity, and 
significant cost reductions, we are arguably more energy secure 
than ever before.
    Although the private sector deserves the bulk of the credit 
for its advances in innovative technologies that have expanded 
our oil and gas supplies, Congress is making important policy 
changes, and DOE has been a valuable source of information in 
these ongoing efforts. For example, the agency's Quadrennial 
Energy Review detailed the existing permitting challenges we 
face as we struggle to update and expand the nation's energy 
infrastructure, and the Long- Term Strategic Review helped 
bring to light the need for improvements to the Strategic 
Petroleum Reserve (SPR).
    With input from DOE, this subcommittee has spearheaded a 
number of efforts that have been passed into law. Last year's 
long-term highway bill, the FAST Act, contains key provisions 
to modernize the SPR, improve emergency preparedness for energy 
supply disruptions, protect critical electric infrastructure 
security, and prioritize energy security in federal decision-
making. Last year's government funding bill lifted the decades-
old restrictions on the export of crude oil, a long-championed 
priority of this committee, and we are beginning to see the job 
creation and energy diplomacy benefits of doing so.
    We continue working on legislation. The pending energy bill 
contains language addressing the siting and permitting process 
for pipelines and hydroelectric generation, efficiency 
measures, and energy workforce development initiatives. Many of 
these provisions will be implemented by DOE.
    Whether by backing basic research and development to enable 
a technology based energy revolution, protecting the electric 
grid from cyber-attacks, or by tracking and responding to 
energy disruptions around the world, the department has an 
important role to play in our evolving energy marketplace.
    Today's hearing will provide an opportunity for Secretary 
Moniz to preview some of the major challenges and opportunities 
presented by the nation's changing energy landscape. We will 
also have a chance to examine DOE's progress in implementing 
recently enacted legislation, including the upgrades to the 
SPR. Our energy future can be a bright one--if we adopt the 
right policies and implement them effectively and I welcome 
DOE's continued role in this effort.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
